        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report

Management Alert on Planned
Actions Related to the National
Energy Technology Laboratory's
Simulation-Based Engineering User
Center




OAS-RA-11-08                               April 2011

                                 Department of Energy
                                    Washington, DC 20585
                                         April 22, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR FOSSIL ENERGY 


FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                INFORMATION: Management Alert on “Planned Actions Related to
                        the National Energy Technology Laboratory’s Simulation-Based
                        Engineering User Center”

BACKGROUND

The Department of Energy's National Energy Technology Laboratory (NETL) initiated plans to
utilize $20 million of American Recovery and Reinvestment Act of 2009 funds to develop the
Simulation-Based Engineering User Center (User Center) – part of the Carbon Capture
Simulation Initiative program. According to project documentation, $3 million of the total cost
will be dedicated to acquiring and installing a Performance Optimized Data Center (POD) at
NETL's Morgantown, West Virginia, site. And, the remaining funds will be spent equipping and
supporting the POD with a high performance computing system. In March 2011, NETL was
given final approval for the project from the Department's Chief Information Officer.

IMMEDIATE CONCERN

We concluded that the plan to acquire and install the POD at a cost of $3 million may not be the
least costly available option. Specifically, we noted that over 3,000 square feet of the usable
space in the NETL's existing data center is not currently utilized nor are there firm plans to use
this space in the future. The unutilized 3,000 square feet of space represents about 70 percent of
the data center's entire capacity. Despite this fact, project documentation submitted to the Chief
Information Officer indicated NETL's intent to acquire additional capacity to support the User
Center initiative. We do not question the need for the User Center. However, we concluded that
documentation submitted to the Chief Information Officer to describe how the project will be
implemented contained a number of analytical flaws and unsupported assumptions that, in our
view, require reconsideration. Because decisions to proceed with the proposed acquisition are
expected shortly, we are bringing these matters to your attention in the expedited form of a
management alert.

These issues were discovered during our on-going audit of Efforts by the Department to Ensure
Energy-Efficient Management of its Data Centers.

                                     Analysis of Alternatives

NETL's User Center project plan was submitted to the Office of the Chief Information Officer
and used to support budgetary information provided to the Office of Management and Budget.
However, we found that the conclusions reached in the project plan related to the viability and
cost of modifying the existing Morgantown data center versus the use of a POD may have been
based on an incomplete analysis. In particular:

   •	 In the User Center project plan, it was asserted that the use of a POD was necessary
      because most of the available square footage at the existing data center was earmarked
      for other initiatives. However, officials from the Information Technology Division, Site
      Operations Division, and Office of Research and Development told us that they were
      unaware of any such initiatives or were unable to provide details to support any intended
      future use.

   •	 The project plan disclosed that while the cost to increase existing data center capacity or
      build a new facility would vary based on a number of factors, it estimated that such
      modifications would have a rough order of magnitude cost of $3 million. Although
      NETL's estimate included costs such as expansion of existing office space and
      construction of raised-flooring space to increase data center space, we noted that these
      costs should not have been included because existing raised-flooring space was already
      available in the Morgantown data center.
        
   •	 A detailed analysis of the costs associated with expanding the existing data center's
      power and cooling capacity was not included in the User Center project plan used to
      justify funding for the project. While the project plan explained the amount of power and
      cooling that would be required for the new system, it did not fully analyze the
      comparative cost of upgrading the existing data center to meet those needs. Using data
      available from recent upgrades to the cooling and electrical infrastructure for NETL's
      Pittsburgh data center, we estimated that these elements of the Morgantown data center
      could be renovated for less than the cost to purchase and install the POD. Furthermore,
      the project plan suggested that there could be problems with construction delays and
      disruptions in existing data center operation should the space be used. Yet, we learned
      that NETL's data center in Pittsburgh had cooling units replaced in a manner that did not
      impact mission-related operations, while electrical upgrades occurred during a holiday
      weekend.
        
   •	 Certain factors considered as part of the project plan's analysis appeared to be internally
      inconsistent. For example, the project plan estimated that information technology
      hardware costs associated with maintaining the project in the existing data center would
      be $12.5 million. However, estimated hardware costs associated with the POD were
      calculated to be $9.6 million. NETL's analysis did not explain the inconsistency between
      hardware costs for the data center and POD options.

   •	 The project plan noted that further analysis was required to better understand NETL's
      overall data center strategy and how those requirements aligned with the overall User
      Center strategy prior to determining the appropriate cost for each option. However, when
        




                                                2

       the project plan was updated in March 2011, no additional analysis of NETL's data center
       strategy had been performed and, as a consequence, overall project costs had not been
       further definitized.

   •	 The use of the existing data center was partially discounted due to potential delays in
      construction that would not allow for the new computing capacity to come online for at
      least 18 months. However, while the project plan cited the POD's ability to be rapidly
      deployed and add capacity quickly, we noted that the project time line indicated that the
      POD would not be fully operable until July 2014 – 37 months after the project's
      specifications were anticipated to be finalized.

                                       Coordination Issues

Based on discussions with NETL personnel who had responsibility for data center operations and
facilities, respectively, we also determined that a lack of coordination existed related to the
Office of Research and Development's preparation of the User Center project plan. Specifically,
while the project plan noted that the vacant space in the Morgantown data center was already
earmarked for other uses, other responsible officials stated that currently there were no plans for
the space. Further, NETL's Site Operations Division had not been informed of the project until
November 12, 2010, three days prior to our interview with officials and nearly three months after
the project charter was approved.

                               Program Impacts and Path Forward

Based on our review, we believe that the acquisition of additional data center space could
undermine efforts to more effectively utilize existing real property and promote energy-
efficiency of data centers. In addition, the use of Recovery Act funds to procure what may be
unnecessary data center space raises serious concerns about the effective use of the Department's
finite resources. We recognize that decisions such as the one proposed for the User Center are
often more complex and nuanced than they might appear. However, we wanted to ensure that
Department decision makers were aware of our concerns before resource commitments were
made regarding the path forward.

Accordingly, we recommend that the Acting Assistant Secretary for Fossil Energy require the
Director, National Energy Technology Laboratory, to:

   1.	 Fully analyze future data center needs and the costs and benefits of utilizing existing
       space in the Morgantown data center;

   2.	 Ensure costs and assumptions are consistent across all alternatives prior to continuing
       plans for acquisition of the POD; and,

   3.	 Coordinate efforts among all affected NETL parties, including the Office of Research and
       Development, the Information Technology Division, and the Site Operations Division,
       when analyzing User Center alternatives.



                                                3

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management stated that it concurred with the recommendations and factual accuracy of the
Management Alert. However, management explained that while many of the concerns we
identified were accurately described, a number of them were already being addressed as part of
the site's project management process. For example, officials noted that an Integrated Project
Team had been recently established to better coordinate the User Center activities. In addition,
after full funding for the project was obtained in March 2011, NETL began an in-depth analysis
of alternatives, including POD and data center build-out options, to aid officials in determining
the best alternative for housing the User Center.

In addition, management explained that NETL operated under the Department's established
capital planning and project management processes in determining the best option for housing the
User Center's computing equipment. Management informed us that the POD had been
documented as the preferred alternative in the project plans and Office of Management and
Budget Exhibit 300. Specifically, management noted that while it acknowledged the project plan
was not complete, it needed to develop support to get funds obligated by the September 30, 2010,
deadline established by the Recovery Act. Furthermore, management commented that the project
management plans we reviewed were preliminary in nature and did not reflect a final acquisition
decision, which is not expected until May 2011.

We commend management for initiating action to address a number of the issues identified in our
report. We disagree, however, with a number of management's comments in response to our draft
report. For instance, NETL officials commented that a decision had not been made as to which
computer center alternative would be selected. Yet, reviews of three versions of project plans
indicated that the POD or computer center had been identified as the preferred alternative.
Specifically, the most recent project plan, dated March 13, 2011, stated that after an analysis of
the most viable options, the POD approach was determined to be the best use of NETL's
computing investment. In addition, communication from a NETL official in February 2011
indicated that "based on our analysis, the POD architecture seems to be the overwhelming best
choice considering projected capital and operating cost savings." Further supporting the
conclusion that the POD alternative had already been selected was the fact that NETL reported
the User Center as a separate data center for purposes of Federal Data Center Consolidation
Initiative reporting requirements in FY 2010.

While we encourage NETL to select the User Center option that best meets mission needs at the
lowest cost, we also remain concerned that incorrect information concerning this matter may have
been submitted to the Office of the Chief Information Officer and to the Office of Management
and Budget. Although NETL's current action to initiate a detailed study of the various User
Center options is consistent with our recommendations, it is important that the Department, in
consideration of alternatives, emphasize the principles established in Executive Order 13514,
October 5, 2009, relating to Federal Leadership in Environmental, Energy, and Economic
Performance, specifically those related to Federal data center management.




                                                 4

cc:   	Deputy Secretary
      Acting Under Secretary of Energy
      Associate Deputy Secretary
      Chief of Staff
      Director, National Energy Technology Laboratory
      Chief Information Officer




                                           5

                                                                  IG Report No. OAS-RA-11-08

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name	                                         Date

Telephone 	                                   Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1) 

                                     Department of Energy 

                                    Washington, DC 20585 


                                  ATTN: Customer Relations 


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
